No. _________
Circuit 18-1529
___________________________________________________
_______
IN THE
Supreme Court of the United States
6th

LIN ROUNTREE,
PETITIONER,
v.
NATIONSTAR MORTGAGE, LLC.
AND FEDERAL NATIONAL MORTGAGE
ASSOCIATION
RESPONDENTS.
___________
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
___________
Darwyn P. Fair & Associates, P.C.
Darwyn P. Fair (P31266)
535 Griswold, Ste. 111-554
Detroit, MI 48226
(313) 967-0595
dpfair@dpfairlaw.com
Attorneys for Petitioners

i
QUESTIONS PRESENTED
1.
WHETHER THE DISTRICT COURT
ERRED IN GRANTING RESPONDENTS MOTION
TO DISMISS WHEN THE RESPONDENTS
FAILED TO COMPLY WITH THE DISTRICT
COURT’S ORDER TO MEDIATE?
2.
WHETHER THE DISTRICT COURT
ERRED IN DENYING PETITIONER’S MOTION
FOR
RECONSIDERATION
WHEN
RESPONDENTS FAILED TO COMPLY WITH THE
DISTRICT COURT’S ORDER TO MEDIATE?

ii
PARTIES TO THE PROCEEDING
LIN ROUNTREE,
PETITIONER
NATIONSTAR MORTGAGE, LLC.
AND FEDERAL NATIONAL MORTGAGE
ASSOCIATION,
RESPONDENTS

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

i

PARTIES TO THE PROCEEDING

ii

TABLE OF AUTHORITIES

iv

OPINIONS BELOW

1

JURISDICTION

1

RELEVANT PROVISIONS INVOLVED

1

STATEMENT

1

REASONS FOR GRANTING THE PETITION

2

CONCLUSION

16

iv
TABLE OF AUTHORITIES

Cases
Chrysler Realty Co., LLC v. Design Forum Architects,
Inc., 544 F. Supp. 2d 609, 618 (E.D. Mich. 2008) .... 14
Tellabs, Inc. v. Makor Issues & Rights, Ltd. , 551 U.S.
308, 127 S.Ct. 2499, 2509 (2007) ............................. 16
Statutes
28 U.S.C. §1254(1) ......................................................... 1
Rules
E.D. Mich. L.R. 16.4(e)(6) ........................................ 8, 13
E.D. Mich. L.R. 7.1(h)(1) .............................................. 14
E.D. Mich. L.R. 7.1(h)(3) .............................................. 14

1
OPINIONS BELOW
The opinion of the United States Court of
Appeals for the Sixth Circuit and the opinion of the
United States District Court for the Eastern District of
Michigan were unpublished opinions.
JURISDICTION
The decision of the United States Court of
Appeals for the Sixth Circuit, affirming the appeal
from the District Court’s ruling finding that the
Petitioners failed to state a claim for which relief can
be granted, was handed down on March 28, 2018. This
Court has jurisdiction pursuant to 28 U.S.C. §1254(1).
RELEVANT PROVISIONS INVOLVED
See Arguments below.
STATEMENT
IN THE STATE CIRCUIT COURT, PETITIONERS
FILED A COMPLAINT FOR QUIET TITLE AND
INJUNCTION REQUEST TO TOLL THE RUNNING
OF THE REDEMPTION PERIOD AND OTHER
RELIEF.
THE ACTION WAS REMOVED TO
FEDERAL COURT BASED UPON DIVERSITY OF
CITIZENSHIP.

2
The Petitioner appealed to the Sixth Circuit
Court of Appeals which affirmed the Federal District
Court opinion.
REASONS FOR GRANTING THE PETITION
The subject matter of this action is situated in
Oakland County, State of Michigan more fully
described as follows:
PARCEL A PART OF THE NORTHWEST ¼ OF
THE NORTHWEST ¼ OF SECTION 36, TOWN 1
NORTH,
RANGE
9
EAST,
CITY
OF
FARMINGTON HILLS, OAKLAND COUNTY,
MICHIGAN, BEING MORE PARTICULARY
DESCRIBED AS FOLLOWS: BEGINNING AT A
POINT
ON
THE
CENTERLINE
OF
SHIAWASSE ROAD (6 FEET WIDE) LOCATED
SOUTH 02 DEGREES 47 MINUTES 04
SECONDS EAST 367.16 ALONG THE WEST
LINE OF SAID SECTION AND SOUTH 70
DEGREES 07 MINUTES 12 SECONDS EAST
1137.24 FEET AND SOUTH 70 DEGREES 07
MINUTES 12 SECONDS EAST 280.30 FEET
ALONG THE CENTERLINE OF SHIAWASSE
ROAD (66 FEET WIDE) AND SOUTH 03
DEGREES 04 MINUTES 31 SECONDS EAST
296.26 FEET ALONG THE WEST LINE OF
WHITTINGTON AVENUE (25 FEET WIDE)
PER RICHLAND GARDENS SUBDIVISION,

3
AS RECORDED IN LIBER 19 OF PLATS,
PAGE 29 OAKLAND COUNTY RECORDS,
FROM THE NORTHWEST CORNER OF
SAID SECTION; THENCE CONTINUING
SOUTH 03 DEGREES 04 MINUTES 31
SECONDS CAST 65:00 FEET; THENCE
SOUTH 86 DEGREES 59 MINUTES 14
SECONDS WEST 258.10 FEET; THENCE
ALONG A LINE 258.10 FEET WEST OF
AND PARALLEL TO THE WEST LINE OF
SAID WHITTINGTON AVENUE NORTH 03
DEGREES 04 MINUTES 31 SECONDS
WEST 65 FEET; THENCE NORTH 86
DEGREES 59 MINUTES 14 SEONDS EAST
258.10 FEET TO THE POINT OF
BEGINNING. SUBJECT TO EASMENTS,
RESTRICTIONS AND RIGHTS OF WAY.
More
Commonly
Known
as
21817
Whittington, Farmington Hills, MI 48336
Petitioner claims as interest in the abovedescribed property as follows: Fee Simple Absolute by
way of an executed Warranty Deed. (Notice of
Removal Complaint Exhibit R. 1-2, Page ID# 33-43)
Respondent, Fannie Mae claims an interest in the
same property as follows: Sheriff's Deed. (Notice of
Removal, Complaint Exhibit, R. 1-2, Page ID# 36-44)
The Petitioner purchased the subject property in 2006,
and the Petitioner is currently residing in the subject
property with his wife and family. (Notice of Removal
Complaint Exhibit R. 1-2, Page ID# 33-34)

4
On October 20, 2006, the Petitioner obtained a
Mortgage on the subject property from Flagstar Bank
(Notice of Removal Complaint Exhibit R. 1-2, Page ID#
45-56) On July 25, 2011, Nationstar assigned its
interest to Respondent, Nationstar Mortgage LLC
(“Nationstar”). (Notice of Removal Complaint Exhibit
R. 1-2, Page ID# 56) Because of Petitioner’s financial
situation, on October 13, 2015, Petitioner was offered
to apply for a Loan Modification by the Respondent,
Nationstar. (Notice of Removal Complaint Exhibit R.
1-2, Page ID# 58-75) On October 22, 2015, Petitioner
signed and returned the Loan Modification Application
to Respondent, Nationstar. After several phone calls
Respondent, Nationstar confirmed that they received
the Petitioner Loan Modification Application. Because
of an apparent glitch in Respondent, Nationstar’s
internal system in January 2016, Petitioner was
informed by Respondent, Nationstar to submit
updated financial information.
Petitioner submitted the updated financial
information to the Respondent, Nationstar.
On
February 16, 2016, Respondent, Nationstar informed
Petitioner that a new Loan Modification Application
needed to be processed.
On February 21, 2016,
Petitioner completed and forwarded the new Loan
Modification
Application
to
the
Respondent,
Nationstar for review. (Notice of Removal Complaint
Exhibit R. 1-2, Page ID# 77-84) In July 2016, because
of another internal problem and timing issue with the
Respondent, Nationstar, Respondent, Nationstar
offered Petitioner another Loan Modification
Application. Petitioner made the three payments
(April, May and June 2016) under the TPP. However,

5
Respondent, Nationstar refused to accept the last
payment.
Petitioner was then informed by the
Respondent, Nationstar to apply for yet another Loan
Modification. Petitioner then applied for the third
Loan Modification and in August 2016, Petitioner was
told that the Loan Modification was denied (Notice of
Removal Complaint Exhibit R. 1-2, Page ID# 86-89) In
September 2016, Petitioner was then informed by
Respondent, Nationstar to apply for a Hamp Loan
Modification. (Notice of Removal Complaint Exhibit R.
1-2, Page ID# 91-101) In October 2016, Petitioner was
informed by Respondent, Nationstar that the Hamp
Loan Modification was denied.
In November 2016, Petitioner was informed by
Respondent, Nationstar to contact Fannie Mae to work
out another Loan Modification. In January 2017,
Petitioner was told that a new program was available
however Respondent, Nationstar refused to go along
with the new program and foreclosed against the
Petitioner.
On February 21, 2017, without knowledge of the
Petitioner the subject property was sold at Sheriff’s
Sale. ((Notice of Removal Complaint Exhibit R. 1-2,
Page ID# 36-43) Respondent, Fannie Mae purchased
the subject property at the Sheriff's Sale. (Notice of
Removal Complaint Exhibit R. 1-2, Page ID# 36-43)
On August 16, 2017, Petitioner filed a Motion
for Temporary Restraining Order and for Preliminary
Injunction to Stay and Toll the Expiration of the
Redemption
Period.
(Motion
for
Temporary
Restraining Order, R. 11, Page ID# 123-140) On
August 17, 2017, the District Court entered an Order

6
requiring Respondents to file a response to Petitioner
Motion for Temporary Restraining Order and for
Preliminary Injunction to Stay and Toll the Expiration
of the Redemption Period. (Order Requiring Response
to Motion for TRO, R. 12, Page ID#224) On August 18,
2017, Respondents filed a response to Petitioner’s
Motion for Temporary Restraining Order and for
Preliminary Injunction to Stay and Toll the Expiration
of the Redemption Period. (Response to Motion for
Temporary Restraining Order, R. 13, Page ID# 225253) On August 21, 2017, Petitioner filed a Reply to
Respondents’ Response to Petitioner’s Motion for
Temporary Restraining Order and for Preliminary
Injunction to Stay and Toll the Expiration of the
Redemption Period. (Reply to Response R. 14, Page
ID# 283-293) Also on August 21, 2017, the District
Court entered an Opinion and Order granting
Petitioner’s Motion for Temporary Restraining Order.
(Opinion and Order Granting Motion, R. 15, Page
ID#317-322)
On August 24, 2017, Respondents filed a Motion
to Dismiss Petitioner’s Complaint. (Motion to Dismiss,
R. 16, Page ID# 323-351) On August 28, 2017, the
District Court entered an Order to Mediate and
Extend the Expiration of the Redemption Period until
11:59 PM on September 11, 2017. (Order to Mediate R.
17 Page ID # 374-376) Pursuant to the District Court’s
Order to Mediate the Parties’ Attorneys did in fact
proceed with mediation and settlement discussions on
September 1, 2017, with Judge Richard Hathaway. To
date the mediation and settlement discussions have
not completed. Moreover, Petitioner never received
the amount to redeem the subject property nor a

7
counteroffer from the Respondents as was discussed in
the Mediation before Judge Hathaway.
On September 7, 2017, Petitioner filed an
Answer to Respondents’ Motion to Dismiss Petitioner’s
Complaint and a Request to Extend the Expiration
of the Redemption Period and Continuation of
the Arbitration Be Granted. (Response to Motion to
Dismiss, R. 18, Page ID# 377-403) On September 11,
2017, the District Court issued an Order and Opinion
dismissing Petitioner’s Complaint. (Opinion and
Order, R. 19, Page ID# 488-496) For the reasons stated
below the Order of the District Court for the Eastern
District of Michigan should be reversed and this
matter should be remanded for Mediation.

8
ARGUMENT
1. THE DISTRICT COURT ERRED IN
GRANTING RESPONDENTS’ MOTION TO
DISMISS WHEN THE RESPONDENTS
FAILED TO COMPLY WITH THE COURT’S
ORDER TO MEDIATE.
On August 28, 2017, the District Court
ordered in pertinent part as follows:
“IT IS FURTHER ORDERED that the case is
REFERRED to retired judge Richard Hathaway1 for
mediation and settlement discussions. The parties are
ORDERED to proceed in compliance with Local Rule
16.4. The mediation and settlement discussions shall
occur no later than September 1, 2017. The parties
shall contact Judge Hathaway and provide him with a
copy of this order as soon as practicable and NOTIFY
the Court of the date of the mediation session once it is
scheduled. Judge Hathaway shall determine the
breakdown of costs to be borne by the parties.
Judge Hathaway shall NOTIFY the Court
within seven days of completion of mediation, stating
only the "date of completion, who participated,
whether settlement was reached, and whether further
alternative dispute resolution proceedings are
contemplated." E.D. Mich. L.R. 16.4(e)(6). If a
settlement is reached, the parties shall NOTIFY the
Court immediately upon completion of mediation and

9
SUBMIT a proposed order of dismissal within
21 days. Id. at 16.4(e)(7). If a settlement is not
reached, the parties shall NOTIFY the Court within
seven days of the completion of mediation.”
Pursuant to the District Court’s Order to
Mediate the Parties’ Attorneys did in fact proceed with
mediation and settlement discussions on September 1,
2017, with Judge Richard Hathaway. To date the
mediation and settlement discussions have not
completed. Moreover, Petitioner never received the
amount to redeem the subject property nor a
counteroffer from the Respondents as was discussed in
the Mediation before Judge Hathaway.
Pursuant to the District Court Order, on
September 7, 2017, Petitioner filed an Answer to
Respondents’
Motion
to
Dismiss
Petitioner’s
Complaint and a Request to Extend the Expiration
of the Redemption Period and Continuation of
the Arbitration Be Granted. (Response to Motion to
Dismiss, R. 18, Page ID# 377-403) On September 11,
2017, the District Court issued an Order and Opinion
dismissing Petitioner’s Complaint (Opinion and Order,
R. 19, Page ID# 488-496) The District Court addressed
the merits of the case. However, the District Court did
not address the outcome of the Mediation in which
there was never a completion as was required by the
Order of Mediation in that:
1. Judge Hathaway shall NOTIFY the Court
within seven days of completion of mediation.
2. If a settlement is reached, the parties shall
NOTIFY the Court immediately upon
completion of mediation and SUBMIT a

10
proposed order of dismissal within 21 days. Id.
at 16.4(e)(7).
3. If a settlement is not reached, the parties shall
NOTIFY the Court within seven days of the
completion of mediation.
None of the above occurred because during and
after Mediation Petitioner never received the amount
to redeem the subject property nor a counteroffer
from the Respondents as was discussed in the
Mediation before Judge Hathaway.
In ruling on a motion to dismiss, the Court may
consider the complaint as well as (1) documents
referenced in the pleadings and central to Petitioner’s
claims, (2) matters of which a court may properly
take notice, (3) public documents, and (4) letter
decisions of government agencies which are appended
to the motion. Tellabs, Inc. v. Makor Issues & Rights,
Ltd. , 551 U.S. 308, 127 S.Ct. 2499, 2509 (2007)
In the case at bar, on August 28, 2017, the
Lower Court entered an Order to Mediate and Extend
the Expiration of the Redemption Period until 11:59
PM on September 11, 2017. (Order to Mediate R. 17
Page ID # 374-376) Pursuant to the Court Order the
Parties’ Attorneys did in fact proceed with mediation
and settlement discussions on September 1, 2017, with
Judge Richard Hathaway.
To date the mediation and settlement
discussions have not completed. Moreover, Petitioner
never received the amount to redeem the subject
property nor a counteroffer from the Respondents as
was discussed in the arbitration before Judge
Hathaway. On September 11, 2017, this Honorable

11
Court issued an Order and Opinion dismissing
Petitioner’s Complaint.
Thus, pursuant to Tellabs above the District
Court erred in failing to consider its August 28, 2017,
Order of Mediation in granting Respondents’ Motion
to Dismiss when the Respondents failed to comply
with the District Court’s August 28, 2017, Order of
Mediation.
2. THE DISTRICT COURT ERRED IN
DENYING PETITIONER’S MOTION FOR
RECONSIDERATION
WHEN
THE
RESPONDENTS FAILED TO COMPLY
WITH THE DISTRICT COURT’S ORDER TO
MEDIATE.
After the District Court on September 11, 2017,
issued an Order and Opinion dismissing Petitioner’s
Complaint,
Petitioner
filed
a
Motion
for
Reconsideration on September 25, 2017. (Motion for
Reconsideration, R. 21, Page ID# 498-506) On April 9,
2018, the District Court issued an Order Denying
Petitioner’s Motion For Reconsideration. (Order
Denying Motion for Reconsideration, R. 25 Page ID #
680-682) The District Court ordered in pertinent
part stated as follows:
“…Since both parties averred that an amicable
solution through settlement might be possible, the
Court also ordered them to mediate within the next
four days. ECF 17.
Evidently the parties timely mediated but did
not reach a settlement then or within the next few
days, and Petitioner suggested that it was unlikely

12
they could reach one prior to the expiration of the
redemption period. ECF 18, Pg ID 387. No party
moved for the extension of the TRO and the Court
chose not to extend it sua sponte for several reasons:
(1) By law, the TRO could not go on indefinitely
merely to allow for open-ended settlement
discussions;
(2) The parties had not been able to negotiate a
settlement for the five months that the case
had been active on two courts' dockets;
(3) The Court finally had adequate briefing
before it, allowing it to resolve the only
motion then before it: a motion to dismiss.”
However, this is in contradiction with the District
Court’s August 28, 2017, Mediation Order which states
as follow:

“IT IS FURTHER ORDERED that the case is
REFERRED to retired judge Richard Hathaway1 for
mediation and settlement discussions. The parties are
ORDERED to proceed in compliance with Local Rule
16.4. The mediation and settlement discussions shall
occur no later than September 1, 2017. The parties
shall contact Judge Hathaway and provide him with a
copy of this order as soon as practicable and NOTIFY
the Court of the date of the mediation session once it is
scheduled. Judge Hathaway shall determine the
breakdown of costs to be borne by the parties.
Judge Hathaway shall NOTIFY the Court
within seven days of completion of mediation, stating
only the "date of completion, who participated,
whether settlement was reached, and whether further
alternative dispute resolution proceedings are

13

contemplated." E.D. Mich. L.R. 16.4(e)(6). If a
settlement is reached, the parties shall NOTIFY the
Court immediately upon completion of mediation and
SUBMIT a proposed order of dismissal within 21
days. Id. at 16.4(e)(7). If a settlement is not reached,
the parties shall NOTIFY the Court within seven days
of the completion of mediation.”
Pursuant to the District Court’s Order to
Mediate the Parties’ Attorneys did in fact proceed with
mediation and settlement discussions on September 1,
2017, with Judge Richard Hathaway. To date the
mediation and settlement discussions have not
completed. Moreover, Petitioner never received the
amount to redeem the subject property nor a counter
offer from the Respondents as was discussed in the
Mediation before Judge Hathaway.
Pursuant to the District Court Order, on
September 7, 2017, Petitioner filed an Answer to
Respondents’
Motion
to
Dismiss
Petitioner’s
Complaint and a Request to Extend the Expiration
of the Redemption Period and Continuation of
the Arbitration Be Granted. (Response to Motion to
Dismiss, R. 18, Page ID# 377-403) On September 11,
2017, the District Court issued an Order and Opinion
dismissing Petitioner’s Complaint. (Opinion and
Order, R. 19, Page ID# 488-496) The District Court
addressed the merits of the case. However, the District
Court did not address the outcome of the Mediation in
which there was never a completion as was required
by the Order of Mediation in that:
1. Judge Hathaway shall NOTIFY the Court
within seven days of completion of mediation.

14
2. If a settlement is reached, the parties shall
NOTIFY the Court immediately upon
completion of mediation and SUBMIT a
proposed order of dismissal within 21 days. Id.
at 16.4(e)(7).
3. If a settlement is not reached, the parties shall
NOTIFY the Court within seven days of the
completion of mediation.
None of the above occurred because during and
after Mediation Petitioner never received the amount
to redeem the subject property nor a counteroffer
from the Respondents as was discussed in the
mediation before Judge Hathaway.
Local Rule 7.1(h) governs motions for
reconsideration, stating that they must be filed
within 14 days after entry of the judgment or order.
E.D. Mich. L.R. 7.1(h)(1). “The court will not grant
motions for rehearing or reconsideration that merely
present the same issues ruled upon by the court,
either expressly or by reasonable implication.” E.D.
Mich. L.R. 7.1(h)(3). The same subsection further
states, “[t]he movant must not only demonstrate a
palpable defect by which the court and the parties . . .
have been misled but also show that correcting the
defect will result in a different disposition of the
case.” Id. A defect is palpable when it is “obvious,
clear, unmistakable, manifest, or plain.” Chrysler
Realty Co., LLC v. Design Forum Architects, Inc., 544
F. Supp. 2d 609, 618 (E.D. Mich. 2008).
In the case at bar, on August 28, 2017, the
Lower Court entered an Order to Mediate and Extend
the Expiration of the Redemption Period until 11:59
PM on September 11, 2017. (Order to Mediate R. 17

15

Page ID # 374-376) Pursuant to the Court Order the
Parties’ Attorneys did in fact proceed with mediation
and settlement discussions on September 1, 2017, with
Judge Richard Hathaway.
To date the mediation and settlement
discussions have not completed. Moreover, Petitioner
never received the amount to redeem the subject
property nor a counteroffer from the Respondents as
was discussed in the arbitration before Judge
Hathaway. On September 11, 2017, the District Court
issued an Order and Opinion dismissing Petitioner’s
Complaint.
The District Court apparently did not have the
full benefit of the fact that mediation and settlement
discussions had not completed nor had Judge
Hathaway notified the Court within the seven days of
completion of mediation, stating the "date of
completion, who participated, whether settlement was
reached, and whether further alternative dispute
resolution proceedings are contemplated.
The District Court's lack of the full benefit of the
fact that mediation and settlement discussions had
not completed nor had Judge Hathaway notified the
Court within seven days of completion of mediation or
the lack thereof was a palpable defect. If the District
Court had the full benefit of the fact that mediation
and settlement discussions had not completed nor had
Judge Hathaway notified the Court within seven days
of completion of mediation it would have resulted in a
different disposition of the case.
Moreover, it is extremely unlikely that the
Respondents would attempt to settle the case in light

16

of the District Court’s September 11, 2017, Order and
Opinion dismissing The District Court's Complaint.
V. CONCLUSION
For the above and foregoing reasons, Petitioner
respectfully requests the issuance of a Writ of
Certiorari to the United States Court of Appeals for
the Sixth Circuit.
Respectfully submitted,
DARWYN P. FAIR & ASSOCIATES
/s/Darwyn P. Fair
DARWYN P. FAIR (P31266)
Attorney for Petitioner
535 Griswold, Ste. 111-554
Detroit, Michigan 48226
(313) 967-0595
dpfair@dpfairlaw.com
Dated: June 24, 2019

17

APPENDIX
United States Court of Appeal For the
Sixth Circuit Order Motion for Reconsideration
18a-18d
United States Court of Appeal For the
Sixth Circuit Order and Opinion

19a-19e

United States District Court Eastern
District of Michigan Order Denying
Motion for Reconsideration

20a-20d

United States District Court Eastern
District of Michigan Opinion and Order
Granting Defendants Motion to Dismiss
21a-21j
United States District Court Eastern
District of Michigan Judgment of
Dismissal

22a

United States District Court Eastern
District of Michigan Order to Mediate

23a-23c

UNITED STATES COURT OF APPEALS FOR THE
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540 POTTER STEWART U.S.
COURTHOUSE CINCINNATI, OHIO 45202-3988
Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: April 30, 2019
Mr. Darwyn Prentiss Fair Law Office
535 Griswold
Suite 111-554
Detroit, MI 48226
Re: Case No. 18-1529, Lin Rountree v. Nationstar
Mortgage, LLC, et al Originating Case No. 2:17-cv11902
Dear Counsel:
The Court issued the enclosed Order today in this
case.
Sincerely yours,
s/Monica M. Page
Case Manager
Direct Dial No. 513-564-7021
cc: Ms. Jong-Ju Chang
Mr. David M. Dell
Mr. David J. Weaver
Ms. Jill Margaret Wheaton
Enclosure

Case No. 18-1529
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
LIN ROUNTREE
Plaintiff - Appellant
v.
NATIONSTAR MORTGAGE, LLC; FEDERAL
NATIONAL MORTGAGE ASSOCIATION
Defendants - Appellees
Upon consideration of the petition for rehearing filed
by the appellant,
It is ORDERED that the petition for rehearing be,
and it hereby is, DENIED.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

Issued: April 30, 2019

UNITED STATES COURT OF APPEALS FOR THE
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540 POTTER STEWART U.S.
COURTHOUSE CINCINNATI, OHIO 45202-3988
Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: March 14, 2019
Ms. Jong-Ju Chang
Mr. David M. Dell
Dykema Gossett
39577 Woodward Avenue
Suite 300
Bloomfield Hills, MI 48304
Mr. Darwyn Prentiss Fair
535 Griswold
Suite 111-554
Detroit, MI 48226
Ms. Jill Margaret Wheaton
Dykema Gossett
2723 S. State Street Suite 400
Ann Arbor, MI 48104
Re: Case No. 18-1529, Lin Rountree v. Nationstar
Mortgage, LLC, et al
Originating Case No. : 2:17-cv-11902
Dear Counsel,
The Court issued the enclosed opinion today in this
case.
Sincerely yours,

s/Cathryn Lovely
Opinions Deputy
cc: Mr. David J. Weaver
Enclosure
Mandate to issue

NOT RECOMMENDED FOR PUBLICATION
File Name: 19a0121n.06
Case No. 18-1529
UNITED STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT

FILED
Mar 14, 2019
DEBORAH S. HUNT, Clerk

LIN ROUNTREE,
Plaintiff-Appellant,

v.

ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE
E A S T E R N DISTRICT
OF MICHIGAN

NATIONSTAR MORTGAGE, LLC; ) FEDERAL
NATIONAL MORTGAGE ) ASSOCIATION.,
Defendant-Appellee.
BEFORE: BATCHELDER,
Circuit Judges.

SUTTON,

DONALD,

BERNICE BOUIE DONALD, Circuit Judge.
The district court ordered the parties in the underlying

case to engage in mediation. Before mediation
completed or a settlement was reached, the district
court granted the defendants’ motion to dismiss the
complaint. The plaintiff now appeals, arguing only
that the district court erred by dismissing the case
prior to the completion of court-ordered mediation.
Had the district court known that mediation was not
complete, the outcome would have been different,
according to the plaintiff. We disagree, as his position
has no basis in the law or the facts. The district court
was well within its authority to grant the pending
motion to dismiss while the parties were engaged in
negotiating a settlement; moreover, the district court
made clear it was aware of the status of the ongoing
mediation proceedings when it granted the motion to
dismiss. Accordingly, we AFFIRM.
I. BACKGROUND
Plaintiff Lin Rountree filed a complaint against
Defendants Nationstar Mortgage LLC and Federal
National Mortgage Association on or about May 16,
2017,1 in the Circuit Court for the County of Oakland,
Michigan. Defendants removed the case to federal
district court on June 15. Two months later, Plaintiff
filed a motion for a temporary restraining order. The
district court granted Plaintiff’s request, and also
ordered Defendants to answer or otherwise respond to
the complaint. Defendants complied, filing a motion to
dismiss the complaint on August 24.

1

All dates refer to the year 2017 unless otherwise noted.

Four days later, and after holding a hearing on the
pending temporary restraining order, the district court
entered an order requiring the parties to mediate.
Nowhere in that order did the district court state that
it would hold the briefing or a ruling on the motion to
dismiss in abeyance pending resolution of mediation.
To the contrary, the district court explained that it
would be considering the briefing on the motion to
dismiss as mediation continued:
Defendants’ motion to dismiss is currently pending,
and Plaintiff’s response is not due until after the
current expiration of the [temporary restraining
order]. The briefing will assist the Court in
determining Plaintiff’s likelihood to succeed on the
merits. In light of the necessary briefing and the
parties’ seeming willingness to seek a practical and
cost-efficient resolution, the Court will briefly
extend the [temporary restraining order] and, in
the meantime, order the parties to mediate
Plaintiff filed his response to the motion to dismiss
on September 7. Four days later— while the mediation
process was still ongoing—the district court granted
the motion to dismiss the complaint for failure to state
a claim and entered judgment in favor of Defendants.
Plaintiff filed a timely motion for reconsideration of
the order on the motion to dismiss, requesting the
district court to reconsider its ruling because the
parties had not completed their mediation and
settlement negotiations. Plaintiff did not raise a single
substantive issue with the order on the motion to
dismiss; instead, according to Plaintiff, the case would
have been disposed of “different[ly]” had the district
court known that the mediation and settlement
discussions were continuing. Plaintiff also complained

that granting the motion to dismiss made it “extremely
unlikely that Defendants will attempt to settle the
case.” The district court denied the motion for
reconsideration, noting that it had “granted the motion
to dismiss for the reasons stated in its opinion and
with full awareness that the parties had commenced
settlement and that the parties were allegedly still ‘in
mediation and settlement discussions with the Courtappointed Mediator.’ [citing Plaintiff’s briefing from
the motion to dismiss].” Plaintiff filed a timely appeal.
II. ANALYSIS
On appeal, Plaintiff’s only contention is that the
district court erred by granting the motion to dismiss
(and denying his motion for reconsideration) while
mediation and settlement discussions were ongoing.
This request boils down to the district court’s
management of its docket. “The court of appeals will
not interfere with the trial court’s control of its docket
except upon the clear showing that the procedures
have resulted in actual and substantial prejudice to
the complaining litigant.” Jones v. Northcoast
Behavioral Healthcare Sys., 84 F. App’x 597, 599, 2003
WL 23140062 (6th Cir. 2003) (citing In re Air Crash
Disaster, 86 F.3d 498, 516 (6th Cir. 1996)). Plaintiff
has not made this showing. First, he has never argued
that the substantive ruling on the motion to dismiss
was incorrect. See Reply Br. at 5 (refusing to respond
to Appellee’s arguments on the merits of the motion to
dismiss). As such, he has not demonstrated that the
district court’s ruling resulted in any actual or
substantial prejudice. Second, Plaintiff points to no
authority demonstrating that court-ordered mediation
in any way prevents the district court from ruling on a

pending motion to dismiss.2 To the extent Plaintiff
argues that the district court made an error because it
was not aware that mediation had not yet concluded,
this contention was flatly rejected by the district court
in its ruling on the motion to reconsider. Last, the
district court was clear that it would be considering the
motion to dismiss while mediation was ongoing, and
Plaintiff made no request to stay the briefing on that
motion. Plaintiff has not made the necessary showing
required to find error with the district court’s
management of its docket.
III.

CONCLUSION

For the aforementioned reasons, we AFFIRM the
district court.

Indeed, across the entirety of Plaintiff’s briefing
before this Court, he cites only five cases, each of
which concerns the merits of a motion to dismiss,
not the district court’s authority to manage its
docket.
2

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LIN ROUNTREE,
Plaintiff,

Case No. 2:17-cv-11902

v.
HONORABLE STEPHEN J. MURPHY, III
NATIONSTAR MORTGAGE LLC and FEDERAL
NATIONAL MORTGAGE ASSOCIATION,
Defendants.
/
ORDER DENYING PLAINTIFF'S MOTION FOR
RECONSIDERATION
The Court has already dismissed the Complaint
in this case and entered judgment. Plaintiff, however,
has filed a motion for reconsideration under Local Rule
The Court finds no reason to reconsider its prior
opinion and will deny the motion.
LEGAL STANDARD
Local
Rule
7.1
governs
motions
for
reconsideration, and the grounds for reconsideration
are narrow. "The movant must not only demonstrate a
palpable defect by which the court and the parties and
other persons entitled to be heard on the motion have
been misled but also show that correcting the defect

will result in a different disposition of the case." E.D.
Mich. LR 7.1(h)(3). A palpable defect is an error that is
obvious, clear, unmistakable, manifest, or plain. Fleck
v. Titan Tire Corp., 177 F. Supp. 2d 605, 624 (E.D.
Mich. 2001).
DISCUSSION
Plaintiff Lin Rountree brought this suit in an
attempt to stave off pending foreclosure proceedings.
The parties repeatedly stipulated to extensions of time
for Defendants to answer or otherwise respond to the
Complaint. ECF 5, 9, 10. And then, two days before
Defendants' filing deadline, Plaintiff filed a motion for
a temporary restraining order. In light of the stakes at
play and the paucity of briefing before it, the Court
ordered expedited briefing on the TRO and scheduled
a hearing. ECF 12. The hearing was held, and that
same day the Court entered an order that extended
the TRO only as long as was necessary for the motion
to dismiss to be fully briefed. Since both parties
averred that an amicable solution through settlement
might be possible, the Court also ordered them to
mediate within the next four days. ECF 17.
Evidently the parties timely mediated but did
not reach a settlement then or within the next few
days, and Plaintiff suggested that it was unlikely they
could reach one prior to the expiration of the
redemption period. ECF 18, PgID 387. No party moved
for the extension of the TRO and the Court chose not
to extend it sua sponte for several reasons:
(1) By law, the TRO could not go on indefinitely
merely to allow for open- ended settlement
discussions;

(2) The parties had not been able to negotiate a
settlement for the five months that the case
had been active on two courts' dockets;
(3) The Court finally had adequate briefing
before it, allowing it to resolve the only
motion then before it: a motion to dismiss.
The Court granted the motion to dismiss for the
reasons stated in its opinion and with full awareness
that the parties had commenced settlement and that
the parties were allegedly3 still "in mediation and
settlement discussions with the Court-appointed
Mediator." ECF 18, PgID 391. The Court was not
misled and finds no palpable error in need of
correction.
ORDER
WHEREFORE, it is hereby ORDERED that
Plaintiff's motion for reconsideration
[21] is DENIED.
SO ORDERED.
The parties had already demonstrated that their
perceptions of the status of settlement talks sometimes
varied. Plaintiff suggested that the initial stipulations
were to allow for settlement talks; Defendants disagreed.
See ECF 13, PgID 252. And at the hearing, Defendants
noted that the extra time was specifically necessary
because the attorneys on the case ha d changed.
3

s/Stephen J. Murphy, III
STEPHEN J. MURPHY, III
United States District Judge
Dated: April 9, 2018
I hereby certify that a copy of the foregoing document
was served upon the parties and/or counsel of record
on April 9, 2018, by electronic and/or ordinary mail.
s/David P. Parker
Case Manager

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LIN ROUNTREE,
Plaintiff,

Case No. 2:17-cv-11902

v.
HONORABLE STEPHEN J. MURPHY, III
NATIONSTAR MORTGAGE LLC and FEDERAL
NATIONAL MORTGAGE ASSOCIATION,
Defendants.
/
OPINION AND ORDER GRANTING
DEFENDANTS' MOTION TO DISMISS AND
DISMISSING THE CASE
Plaintiff resides at 21817 Whittington,
Farmington Hills, MI (the Property). Defendant
Nationstar owns the mortgage on the Property and
Defendant Federal National Mortgage Association
(Fannie Mae) holds a sheriff's deed on the Property.
Plaintiff filed an eight- count complaint and
Defendants now move to dismiss it. A temporary
restraining order (TRO) is currently in place but will
expire on the same day that the Court will issue this
Order. For the reasons below, the Court will not
further extend the TRO, but will instead grant the
motion and dismiss the case.

BACKGROUND
Plaintiff purchased the Property in 2006 and
obtained a warranty deed and a mortgage on the
home. ECF 1-2; PgID 33–34. Apparently Plaintiff ran
into financial difficulties and by October 2015 he was
behind on two mortgage payments. ECF 18, PgID
392. Nationstar allegedly invited Plaintiff to apply for
a loan modification, and on October 13, 2015,
Nationstar sent him a letter that informed him he was
"eligible for a Loan Modification Agreement, which
[would] permanently change the terms of [his]
mortgage." ECF 1-2, PgID 58. The letter stated that if
Plaintiff "complied with the terms of the required Trial
Period Plan," Nationstar would modify his mortgage
and might "waive all prior late charges that remain
unpaid." Id. The letter instructed Plaintiff to sign and
return two copies of an attached agreement by October
23, 2015 and to "[m]ake all remaining trial period
payments on or before the dates they are due." Id.
Plaintiff claims he returned the signed agreements on
October 22, 2015 and that Nationstar confirmed
receipt over the phone.
Plaintiff avers there was a "glitch" in Nationstar's
system, so around January 2016, N ationstar told him to
submit updated financial information, which he claims he did.
ECF 1810, PgID 474. But on February 16, 2016, Nationstar
sent him another document that differed from the documents
purportedly sent in October 2015. The February documents
included a "Borrower Assistance Form" that directed the
borrower to provide verifying financial documents "to be
considered for available solutions." ECF 1-2, PgID 77. Unlike
the copies of the October documents provided to the Court, the
February documents are completed, signed, and dated
February 21, 2016. Id. at 77–84.

At that point, Plaintiff's version of the timeline
becomes slightly unclear. From the Response brief and
the affidavit upon which it relies, it seems that Plaintiff
was "accepted in the Trial Payment Program ('TPP')"
following his submission of the completed February
documents, made three payments under the TPP that
corresponded to October, November, and December
2015.4 ECF 18, PgID 393. Nationstar5 then directed
Plaintiff to make a fourth payment and Plaintiff
complied, but Nationstar rejected the payment. Id.
Nationstar also "failed to execute the Loan Modification
Agreement" and discussions about modifying the loan
began in August 2016. Id.
What is crystal clear is that on August 12, 2016,
Nationstar sent Plaintiff a letter. It informed Plaintiff
that Nationstar was unable to grant his request for
assistance and specifically listed three programs for
which he had been declined. ECF 1-2, PgID 86. The
letter also listed possible alternatives Plaintiff might
be able to pursue, including reinstatement. Id.
Plaintiff claims he "attempted in good faith to
implement the Loan Modification Agreement and
reinstate the loan" but has been unsuccessful. ECF 18,
PgID 393.
Nationstar finally foreclosed on Plaintiff's home
in January 2017 and Defendant Fannie Mae purchased
the home at a sheriff's sale the next month. ECF 1-2,
PgID 36–43. The redemption period would have ended

It seems the payments were actually made in April, May
and June 2016. Cf. ECF 18- 10, PgID 475.
4

5

The briefing refers exclusively to "Flagstar" from this point on.

on August 21, 2017, but the Court stayed the
expiration date. ECF 15, 17.
STANDARD OF REVIEW
Federal Rule of Civil Procedure 12(b)(6) provides for
dismissal of a complaint for failure to state a claim
upon which relief can be granted. Fed. R. Civ. P.
12(b)(6). The Court may only grant a 12(b)(6) motion to
dismiss if the allegations are not "sufficient 'to raise a
right to relief above the speculative level,' and to 'state
a claim to relief that is plausible on its face.'" Hensley
Mfg. v. ProPride, Inc., 579 F.3d 603, 609 (6th Cir. 2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555,
570 (2007)). In evaluating the motion, the Court
presumes the truth of all well-pled factual assertions.
Bishop v. Lucent Techs. Inc., 520 F.3d 516, 519 (6th
Cir. 2008). Moreover, the Court must draw every
reasonable inference in favor of the non-moving party.
Dubay v. Wells, 506 F.3d 422, 427 (6th Cir. 2007). But a
"pleading that offers 'labels and conclusions' or 'a
formulaic recitation of the elements of a cause of action
will not do.'" Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Twombly, 550 U.S. at 555).
DISCUSSION
Count One — Quiet Title
Plaintiff asserts that Defendants knew he was trying to
enter into a loan modification agreement, but they
intentionally acted to preclude him from doing so. ECF
1-2, PgID 16–17. Consequently, the Property is
currently in Fannie Mae's name. Id. In response,
Defendants emphasize that quieting title is a remedy,

not a stand-alone cause of action and further, Plaintiff
has failed to satisfy the statutory prerequisites to quiet
title. ECF 16, PgID 335–36.
Michigan law permits "any person . . . who claims
any right in, title to, equitable title to, interest in, or
right to possession of land" to bring a quiet-title action
"against any other person who claims or might claim
any interest inconsistent with the interest claimed by
the plaintiff[.]" Mich. Comp. Laws § 600.2932(1). To
succeed, a plaintiff must allege "(a) the interest the
plaintiff claims in the premises; (b) the interest the
defendant claims in the premises; and (c) the facts
establishing the superiority of the plaintiff's claim."
Mich. Ct. Rule 3.411(B)(2).
Plaintiff claims an interest in the land, but the
claim is unfounded. Even taking every assertion of the
complaint as true, Plaintiff has asserted that he
entered into a contractual obligation, defaulted on that
obligation, and has tried, unsuccessfully, to
renegotiate the terms. These facts do not make his
interest in the property "superior" to Fannie Mae's, even
if Nationstar's actions were improper. See Yuille v.
Am. Home Mortg. Servs., Inc., 483 F. App'x 132, 135
(6th Cir. 2012) (citing Richards v. Tibaldi, 272 Mich.
App. 522, 537 (2006)). Accordingly, Plaintiff's quiettitle count fails.
Counts Two and Three — Breach of Agreements and
Specific Performance
The second and third counts concern an alleged
contract. To state a breach of contract, claim under
Michigan law, a plaintiff must establish five elements:
"1) parties competent to contract, 2) a proper subject
matter, 3) a legal consideration, 4) mutuality of
agreement, and 5) mutuality of obligation." In re

Brown, 342 F.3d 620, 628 (6th Cir. 2003) (citing
Thomas v. Leja, 187 Mich. App. 418, 422 (1991)).
Specific performance on a contract is an extraordinary
remedy, rather than a cause of action itself. In any
event, to succeed in a breach of agreement claim, or in
securing an order for specific performance, Plaintiff
must first plead the existence of a contract.
According to the Complaint, Plaintiff was
"offered to apply for a Loan Modification" and he was
"damaged as a result of Defendant(s) refusal to provide
a permanent modification." ECF 1-2, PgID 17–18. But
Plaintiff has not pointed to any consideration,
mutuality of agreement, or mutuality of obligation to
support a contractual arrangement. In short, Plaintiff
has not shown that Defendants had any contractual
obligation to reinstate his loan. And the written
documents provided to the Court do not reveal an
agreement, either. In sum, Plaintiff has failed to plead
the existence of a contract that is plausible on its face.
His breach-of-agreement and specific-performance
counts fail.
Counts Four and Five — Promissory and Equitable
Estoppel
Plaintiff claims Nationstar made negligent, and
perhaps intentional, representations that it would
"properly assess Plaintiff's eligibility for a HAMP or
other modification" but never did. ECF 1-2, PgID 19–
20. He avers that Nationstar knew he would rely on
its representation and could reasonably foresee that he
would suffer damages—damages that he estimates to be
$50,000. ECF 1-2, PgID 20–21. Although not clear from

the Complaint,6 Plaintiff seems to argue that
Nationstar's representations included indicating it
would not proceed with a sheriff's sale. Accordingly,
Plaintiff argues Nationstar is estopped from enforcing
that sale.
Michigan's statute of frauds restricts actions
premised on promises by financial institutions. When
a plaintiff brings an action against a financial
institution to enforce a promise or commitment to lend
money, extend or modify the repayment of a loan,
waive a provision of a loan, or "make any other
financial accommodation," the promise or commitment
must be "in writing and signed with an authorized
signature by the financial institution[.]" Mich. Comp.
Laws § 566.132. An agreement to delay a sheriff's sale
is an agreement to make a "financial accommodation."
Etts v. Deutsche Bank Nat'l Tr. Co., 126 F. Supp. 3d
889, 902 (E.D. Mich. 2015).
Plaintiff has neither presented nor alleged the
existence of a written promise or commitment by
Nationstar to modify his loan or otherwise forbear from
a sheriff's sale. The February documents are not signed
by Nationstar and the October documents are not
signed by any party. See ECF 1-2, 58–75, 77–84. His
promissory and equitable estoppel counts fail.

Count Four is titled "Promissory Estoppel" but functionally
describes negligent and intentional misrepresentation. Count Five
is titled "Equitable Estoppel," but under Michigan law, "equitable
estoppel is not a cause of action unto itself; it is available only as
a defense." Casey v. Auto Owners Ins. Co., 273 Mich. App. 388,
399 (2006).
6

Count Six — Wrongful Foreclosure by Advertisement
Plaintiff claims that the Property was wrongfully
foreclosed upon because Defendants "knew or should
have known that Plaintiff was attempting to enter into a
Loan Modification" and nevertheless took actions
"designed to preclude" Plaintiff from entering into a
loan modification agreement. ECF 1-2, PgID 23.
Specifically, Plaintiff accuses Nationstar of engaging in
"dual tracking"—the practice of stringing a borrower
along with the promise of modifying his loan, while
simultaneously proceeding through the foreclosure
process. According to Plaintiff, the allegation of dual
tracking is "[t]he heart of the dispute[.]" ECF 18, PgID
397.
There are four prerequisites to foreclose by
advertisement:
(a) A default in a condition of the mortgage has
occurred, by which the power to sell became
operative.
(b) An action or proceeding has not been instituted,
at law, to recover the debt secured by the
mortgage or any part of the mortgage or, if an
action or proceeding has been instituted, either
the action or proceeding has been discontinued
or an execution on a judgment rendered in the
action or proceeding has been returned
unsatisfied, in whole or in part.
(c) The mortgage containing the power of sale has
been properly recorded.
(d) The party foreclosing the mortgage is either the
owner of the indebtedness or of an interest in the

indebtedness secured by the mortgage or the
servicing agent of the mortgage.
Mich. Comp. Laws § 600.3204. Plaintiff does not allege
that any of these requirements were unmet, but
rather, makes a general contention that dual tracking
occurred. But "[c]ourts in this District have repeatedly
held . . . that dual-tracking allegations do not
constitute allegations of irregularities in the
foreclosure process" because "each process is separate."
Buttermore v. Nationstar Mortg. LLC, No. 16-14267,
2017 WL 2306446, at *7 (E.D. Mich. May 26, 2017).
Plaintiff has not alleged a facially plausible claim of
wrongful foreclosure.
Count Seven — Breach of Duty of Good Faith and Fair
Dealing
Plaintiff also alleges that Nationstar breached a
duty of good faith and fair dealing. Plaintiff claims that
on October 13, 2015, he "was offered to apply for a Loan
Modification" by Nationstar, and that he "accepted the
offer and met the conditions" yet "Nationstar either
failed or refused to provide [him] a permanent Loan
Modification." ECF 1-2, PgID 24. Consequently,
"Defendants unfairly interfered with Plaintiff's right to
receive the benefits of the TPP and permanent Loan
Modification." Id.
"Michigan does not recognize a claim for breach
of an implied covenant of good faith and fair dealing[.]"
Belle Isle Grill Corp. v. City of Detroit, 256 Mich. App.
463, 476 (2003); see also Wypych v. Deutsche Bank Nat'l
Tr. Co., No. 16-CV-13836, 2017 WL 1315721, at

*7 (E.D. Mich. Apr. 10, 2017) (dismissing a similar
claim in a foreclosure challenge). Plaintiff's count
therefore fails.
Count Eight — Injunction and Other Relief
Plaintiff's final count merely seeks a permanent
injunction as a remedy for the allegations in the
preceding counts. Each of the other counts, however,
has failed to state a claim for which relief may be
granted.
An
injunction
would therefore
be
inappropriate, and the Court will not further extend
the TRO.
ORDER
WHEREFORE, it is hereby ORDERED
Defendant's Motion to Dismiss [16] is

that

GRANTED.
IT IS FURTHER ORDERED that the case is
DISMISSED WITH PREJUDICE.
SO ORDERED
s/Stephen J. Murphy, III
STEPHEN J. MURPHY, III
United States District Judge
Dated: September 11, 2017
I hereby certify that a copy of the foregoing document
was served upon the parties and/or counsel of record
on September 11, 2017, by electronic and/or ordinary
mail.
s/Keisha Jackson for
David Parker
Case Manager

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LIN ROUNTREE,
Plaintiff,

Case No. 2:17-cv-11902

v.
HONORABLE STEPHEN J. MURPHY, III
NATIONSTAR MORTGAGE LLC and FEDERAL
NATIONAL MORTGAGE ASSOCIATION,
Defendants.
/
JUDGMENT
IT IS ORDERED AND ADJUDGED that pursuant to this
Court's order dated September 11, 2017, the case is
DISMISSED WITH PREJUDICE
DAVID J. WEAVER
CLERK OF THE COURT
BY: s/D. Parker
APPROVED:
s/Stephen J. Murphy, III
STEPHEN J. MURPHY, III
UNITED STATES DISTRICT JUDGE
I hereby certify that a copy of the foregoing document
was served upon the parties and/or counsel of record on
September 11, 2017, by electronic and/or ordinary
mail.
s/David P. Parker
Case Manager

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LIN ROUNTREE,
Plaintiff,

Case No. 2:17-cv-11902

v.
HONORABLE STEPHEN J. MURPHY, III
NATIONSTAR MORTGAGE LLC and FEDERAL
NATIONAL MORTGAGE ASSOCIATION,
Defendants.
/
ORDER TO MEDIATE
A temporary restraining order is currently in
effect which tolls the redemption period on Plaintiff's
property. The Court held a hearing to determine
whether the TRO should be extended, converted into a
permanent injunction, or dissolved. Plaintiff is
principally interested in remaining in his home,
whether through a loan modification or repurchase of
the property. Although Defendants are opposed to any
further tolling of the redemption period, counsel
indicated at the hearing that an arrangement with
Nationstar, Fannie Mae, or both, might be possible
through further negotiations.
Defendants' motion to dismiss is currently
pending, and Plaintiff's response is not due until after
the current expiration of the TRO. The briefing will
assist the Court in determining Plaintiff's likelihood to
succeed on the merits. In light of the necessary

briefing and the parties' seeming willingness to seek a
practical and cost-efficient resolution, the Court will
briefly extend the TRO and, in the meantime, order
the parties to mediate.
ORDER
WHEREFORE, it is hereby ORDERED that
the temporary restraining order currently in effect is
EXTENDED and the expiration of the redemption
period is TOLLED until 11:59
p.m. on September 11, 2017.
IT IS FURTHER ORDERED that Plaintiff
shall file his response to Defendants' Motion to Dismiss
[16] on or before September 7, 2017.
IT IS FURTHER ORDERED that the case is
REFERRED to retired judge Richard Hathaway7 for
mediation and settlement discussions. The parties are
ORDERED to proceed in compliance with Local Rule
16.4. The mediation and settlement discussions shall
occur no later than September 1, 2017. The parties
shall contact Judge Hathaway and provide him with a
copy of this order as soon as practicable and NOTIFY
the Court of the date of the mediation session once it is
scheduled. Judge Hathaway shall determine the
breakdown of costs to be borne by the parties.
Judge Hathaway shall NOTIFY the Court
within seven days of completion of mediation, stating
only the "date of completion, who participated, whether
settlement was reached, and whether further
alternative dispute resolution proceedings are
7

Judge Hathaway can be reached at (313) 530-8960 or
rickjudge@yahoo.com.

contemplated." E.D. Mich. L.R. 16.4(e)(6). If a
settlement is reached, the parties shall NOTIFY the
Court immediately upon completion of mediation and
SUBMIT a proposed order of dismissal within 21 days.
Id. at 16.4(e)(7). If a settlement is not reached, the
parties shall NOTIFY the Court within seven days of
the completion of mediation.
SO ORDERED
s/Stephen J. Murphy, III
STEPHEN J. MURPHY, III
UNITED STATES DISTRICT JUDGE

Dated: August 28, 2017
I hereby certify that a copy of the foregoing document
was served upon the parties and/or counsel of record
on August 28, 2017, by electronic and/or ordinary mail.
s/David P. Parker
Case Manager

